US 20-787 Service List
Attorneys for Respondents
Greg A. Rubstello, WSBA #6271
James Edward Haney, WSBA #11058
Ogden Murphy Wallace, PLLC
901 Fifth Avenue, Suite 3500
Seattle, WA 98164
(206) 447-7000
grubstello@omwlaw.com
jhaney@omwlaw.com
Attorneys for City of Bainbridge Island
Phyllis J. Barney
Assistant Attorney General
Ecology Division
Dionne Padilla-Huddleston
Assistant Attorney General
Licensing & Administrative Law
PO Box 40117
Olympia, WA 98504
(360) 586-6770
phyllisb@atg.wa.gov
dionnep@atg.wa.gov
Attorneys for Respondent Dep’t of Ecology

Lisa M. Petersen
Assistant Attorney General
Licensing & Administrative Law
800 Fifth Avenue, Suite 2000
Seattle WA 98104
(360) 753-6200
lisa.petersen@atg.wa.gov
Attorney for Growth Board, ELUHO

